BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Brief Amicus
Curiae of Free Speech Defense & Education Fund, Free
Speech Coalition, Conservative Legal Defense and
Education Fund, Downsize DC Foundation, and
Downsize DC.org in Support of Respondents in 20-828,
Federal Bureau of Investigation, et al. v. Yassir Fazaga,
et al., were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
service and e-mail to the following parties listed below,
this 28th day of September, 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners
Ahilan T. Arulanantham
UCLA School of Law
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu

Counsel for Respondents Yassir Fazaga, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale .com

Counsel for Respondents J. Stephen Tidwell and
Barbara Walls
Alexander Howard Cote
Winston & Strawn LLP
333 S. Grand Avenue, 38th Floor
Los Angeles, CA 90071
(213) 615-1993
acote@winston.com

Counsel for Respondents Paul Allen, Kevin Armstrong,
and Pat Rose
William J. Olson
Counsel of Record
William J. Olson, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 28, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

>-

1.0.. q J-t- J

Ob d I

a~ ~.~
[seal]

